T

SEE

No

IN THE
SUPREME COURT OF THE UNITED STATES

n
I’t

‘V'\
V_

LiJ

tii —I

AARON ORLANDO RICHARDS — PETITIONER
vs.

DARREL VANNOY, WARDEN — RESPONDENT(S)

FILED
MAR 2 h 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

AARON ORLANDO RICHARDS
388486, SPRUCE—2
LOUISIANA STATE PENITENTIARY
ANGOLA, LA 70712

QUESTIONS PRESENTED
This is a principal to second degree robbery case based, almost
exclusively, on questionable circumstantial evidence that ended in a life
sentence for Aaron Orlando Richards and leads to the following questions:
1.

2.

The State's evidence, presented at trial, established that a male
perpetrator attacked and robbed the victim. The entire ordeal
was captured by a security camera. The video exclusively proves
Richards was not the perpetrator. The video also, as the State
conceded, disproved the theory of anyone acting as a lookout for
the perpetrator:
A.

Did the State, according to the standard announced in
Jackson v. Virginia, 443 U.S. 307, 99 S.Ct. 2781, 61
L.Ed.2d 560 (1979) present sufficient evidence to convict
in this case?

B.

Did the State prove, beyond a reasonable doubt, that
Richards acted as a lookout for an alleged accomplice?

C.

Was the jury's decision to convict a rational decision?

Richards's trial counsel, who has since been disbarred, rendered
ineffective assistance contrary to the Sixth Amendment to the
United States Constitution. Counsel had several issues
transpiring in his life that caused his performance to be
constitutionally deficient:
A.

Did Richards's trial counsel render ineffective assistance
when he failed to file a Motion for Bill of Particulars and
Notice?

B.

Did Richards's trial counsel render ineffective assistance
when he failed to file a motion to suppress an alleged
inculpatory statement?

C.

Did Richards's trial counsel render ineffective assistance
when he failed to present a defense and meaningfully
challenge
VitlUAWil^v the
viiv nro'SPinihrm’'!
v^v v wviviL u

u

.

LIST OF PARTIES
All parties appear in the caption of the case on the cover page,

in

TABLE OF CONTENTS
PAGE NO.
QUESTIONS PRESENTED

11

LIST OF PARTIES

m

TABLE OF CONTENTS

iv

INDEX TO APPENDICES

v
vi

TABLE OF CITED AUTHORITIES
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

4

1.

Richards’s Conviction For Being A Principal To Second Degree
Robbery Was Obtained Contrary To The Standard Announced In
Jackson v. Virginia, 443 U.S. 307, 99 S.Ct. 2781 (1979)..............

5

A.

The Incident...............................................................................

6

B.

The Elements

Offense.....................................

7

C.

The Alleged Confession...........................................................

10

D.

The Victim’s Description

Perpetrator..........................

12

E.

Trial Counsel’s Deficient Performance..................................

13

of the Alleged

of the

iv

?

•

2.

Richards’s Trial Counsel Rendered Ineffective Assistance Under The
Standard Announced In Strickland v. Washington, 466 U.S. 668, 104
S.Ct. 2052, 80 L.Ed.2d 674 (1984)....................................................... . 14
Bill of Particulars and Notice....... 15

A.

Failed

to

File a Motion

B.

Failed

to

Offer a Defense

16

C.

Failed

to

File Motion

18

for

to

Suppress

20

CONCLUSION

INDEX TO APPENDICES
Page

Appendix
A

Order Denying COA

1

B

District Court’s Judgment

3

C

Magistrate Judge’s Report and Recommendation

4

D

State Supreme Court’s Denial of Post-Conviction Relief

15

E

State Appellate Court’s Denial of Post-Conviction Relief

17

F

State Supreme Court’s Denial of Certiorari on Direct Appeal

20

G

State Appellate Court’s Opinion on Direct Appeal

21

v

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Cole v. Arkansas, 68 S.Ct. 514 (1948)

18

Combs v. Tennessee, 530 F.2d 695 (6th Cir. 1976),

16

DeJonge v. State of Oregon, 299 U.S. 353, 57 S.Ct. 255 (1937)

18

In re Oliver, 33 U.S. 257, 68 S.Ct. 499 (1948)

18

State v. Allen, 2005-1622 (La. App. 1 Cir. 3/2/06); 934 So.3d 146

8

State v. Brady, 414 So.2d 364 (La. 1982)

5

State v. Brown, 51,352 (La. App. 2 Cir. 5/2/17); 223 So.3d 88

7

Goodwin v. Balkcom, 684 F.2d 794 (11th Cir. 1982)
Hohn v. United States, 524 U.S. 236,253, 118 S.Ct. 1969 (1998)

19
2

Jackson v. Virginia, 443 U.S. 307, 99 S.Ct. 2781 (1979)....ii,l,5,8,9,12,13,18
Lucas v. O’Dea, 179 F.3d 412 (C. A. 6 1999)

16,17

Lucas v. O’Dea, No. 3:96-CV-482-A (June 18, 1997)

17

Maine v. Moulton, 474 U.S. 159, 106 S.Ct. 477 (1985)

14

Nero v. Blackburn, 597 F.2d 991 (5th Cir. 1979)

15

State v. Hampton, 98-0625, p. 13 (La. 4/23/99); 750 So.2d 867

8

State v. Jacobs, 504 So.2d 817 (La. 1987)

13

State v. Langford, 483 So.2d 979 (La. 1986)

13

vi

State v. Muss all, 523 So.2d 1305 (La. 1988)

5

State v. Neal, 00-0674 (La. 6/29/01); 796 So.2d 649

5

State v. Porretto, 468 So.2d 1142 (La. 1985).
State v. Wiggins, 44,616 (La. App. 2 Cir. 9/23/09); 22 So.3d 1039
Stirone v. United States, 362 U.S. 212, 80 S.Ct. 270 (1960)

14
7,8
16

Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052 (1984).

1,14

United States v. Cronic, 466 U.S. 648, 104 S.Ct. 2039 (1984)

1,20

Wade v. Armontrout, 798 F.2d 304 (8th Cir. 1986)

19

STATUTES AND RULES
28U.S.C. § 1254(1)

2

La. C. Cr. P. art. 484

15
8

La.R.S. 14:10(1)
La.R.S. 14:24

8,15

La.R.S. 15:438

13

Rule 10 of the United States Supreme Court

4

Rule 13.1 of the United States Supreme Court

2

vu

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Richards respectfully prays that a writ of certiorari be issued to review
the order of the United States Court of Appeals for the Fifth Circuit denying
a Certificate of Appealability (COA) on his Fifth, Sixth and Fourteenth
Amendment claims, as interpreted by Jackson v. Virginia, 443 U.S. 307, 99
S.Ct. 2781, 61 L.Ed.2d 560 (1979); Stricklandv. Washington, 466 U.S. 668,
104 S.Ct. 2052, 80 L.Ed.2d 674 (1984); and United States v, Cronic, 466
U.S. 648, 104 S.Ct. 2039 80 L.Ed.2d 657 (1984).
OPINIONS BELOW
The order of the Court of Appeals, No. 20-30411, denying a COA
appears at Appendix A to the petition and has been designated for
publication but is not yet reported. The District Court’s order and the
Magistrate Judge’s report and recommendation appear in Appendices B and
C to the petition and they are reported at USDC No. 6:19-CV-314, 2020 WL
3422164 (6/22/20); and 2020 WL 3424863 (4/16/20). The various state court
opinions underlying the federal proceedings appear in Appendices D-G.

1

JURISDICTION
The Court of Appeals entered final judgment against Richards
February 12, 2021 and he did not file a petition for rehearing. As such, this
Court has jurisdiction under 28 U.S.C, § 1254(1) and Rule 13.1 of the Rules
of the Supreme Court of the United States. See Hohn v. United States, 524
U.S. 236,253, 118 S.Ct. 1969,1978, 141 L.Ed.2d 242 (1998) (holding denial
of COA reviewable).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Fifth Amendment to the United States Constitution provides in
pertinent part:
[N]or shall be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or property,
without due process of law[.]
The Sixth Amendment to the United Sates Constitution provides in
pertinent part:
In all criminal prosecutions, the accused shall enjoy the right to
a speedy and public trial, by an impartial jury ... and to have the
assistance of counsel for his defense.
The Fourteenth Amendment to the United Sates Constitution provides
in pertinent part:
No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
La.C. Cr.P.art. 821(B)
A post verdict judgment of acquittal shall be granted only if the
court finds that the evidence, viewed in a light most favorable to
the state, does not permit a finding of guilty.

3

STATEMENT OF THE CASE
On April 16, 2009, Addie Bourgeois’s purse was snatched after she
was punched in the face. She initially said her assailant “had dark hair ...
and was dark complected, not black.” R. p. 400, vol. 2 of 3. On October 15,
2009, Richards, a light-skinned black man, was charged with the second
degree robbery perpetrated against Bourgeois. Richards was found guilty as
a principal to second degree robbery. Richards was initially sentenced to
twenty-five years without the benefit of probation, parole, or suspension of
sentence. He was later adjudicated a habitual offender and sentenced to
spend the rest of his life in prison without benefits. Richards’s direct appeal,
and the collateral attack, of his conviction and sentence were unsuccessful.
Thus far, Richards has been unable to obtain a writ of habeas corpus. On
February 12, 2021, the Fifth Circuit Court of Appeals denied Richards’s
request for a Certificate of Appealability. This instant petition for a writ of
certiorari timely follows.
REASONS FOR GRANTING THE WRIT
Under Rule 10, the Louisiana courts and the United States Fifth
Circuit Court of Appeals denied relief contrary to decided important
questions of federal law that has been settled by this Court and farther

4

decided important federal questions in ways that conflicts with relevant
decisions of this Court as set forth below:
1.

Richards's Conviction For Being A Principal To Second Degree
Robbery Was Obtained Contrary To The Standard Announced In
Jacksonv. Virginia, 443 U.S. 307, 99 S.Ct. 2781 (1979).
In any criminal prosecution, the State must sustain the heavy burden

of proving every element of the crime charged beyond a reasonable doubt.
State v. Brady, 414 So.2d 364,365 (La. 1982). In evaluating whether
evidence is constitutionally sufficient to support a conviction, the reviewing
court must determine whether, after viewing the evidence in the light most
favorable to the prosecution, any rational trier of fact could have found the
defendant guilty beyond a reasonable doubt. Jackson v. Virginia, 443 U.S.
307, 99 S.Ct. 2781. A reviewing court making this inquiry is not permitted
to consider only the evidence most favorable to the prosecution. State v.
Mussall, 523 So.2d 1305,1310 (La. 1988); citing Jackson v. Virginia, supra.
The court must consider the record as a whole since that is what a rational
trier of fact would do. Id. When the key issue is the defendant's identity as
the perpetrator, rather than whether the crime was committed, the State is
required to negate any reasonable probability of misidentification. State v.
Neal, 00-0674 (La. 6/29/01); 796 So.2d 649,658. In this case, the State

5

failed to prove, beyond a reasonable doubt, that Richards acted as lookout,
or actually committed, a robbery in violation of the Fifth, Sixth and
Fourteenth Amendments to the United States Constitution.
A. The Incident.

Surveillance footage obtained from a Buffalo Wild Wing’s captured
the incident Richards was convicted for. The video showed Bourgeois’s
vehicle pulling into the parking lot and another vehicle enter the lot behind
her. The driver of the second car exited his vehicle, approached Bourgeois’s
car where he proceeded to attack and rob her. After the assault and robbery,
the driver ran back to his car. The video established the person who robbed
Bourgeois got out on the driver’s side and re-entered the same way. The
video does not show anyone acting as a lookout for the person who attacked
and robbed Bourgeois. About forty-five minutes after the robbery,
Bourgeois’s credit card was used at a Wal-Mart store. The card was used
again later that evening at a gas station. Video surveillance from the 2
locations established that D&rvin Williams was the person who used
Bourgeois’s credit card.
The State does not claim Richards was the robber captured on video.
The State also told the jury the video does not show anyone acting as a

6

lookout:

ladies and gentlemen, if you choose to believe [Richards’s]

statement that he participated and was there in the robbery but he just acted
as a look-out, even though we all saw that there was no look-out on the
video, he’s still guilty. It[s] called “principals.” R. p. 212 (emphasis added).
Two important factors were presented to the jury that makes their decision
to convict irrational: (1) Richards was not the person on the video who
attacked and robbed Bourgeois; and (2) the video does not show anyone
acting as a lookout. Richards was charged with second degree robbery and
convicted as a principal to the same only because he was seen on video
surveillance with the person who used Bourgeois’s credit cards.
B. The Elements

of the

Alleged Offense.

To convict a defendant of second degree robbery, the prosecution is
required to prove:
(1) the taking of (2) anything of value (3) belonging to another from
the person of another or that is in the immediate control of another (4)
when the offender intentionally inflicts serious bodily injury.
State v. Brawn, 51,352 (La App. 2 Cir. 5/2/17); 223 So.3d 88,95 (citing
State v. Wiggins, 44,616 (La. App. 2 Cir. 9/23/09); 22 So.3d 1039,1042).
In cases where the defendant is accused of being principal to the
offense, the prosecution is also required to establish that any:

7

... persons concerned in the commission of a crime, whether present
or absent, and whether they directly commit the act constituting the
offense, aid and abet in its commission, or directly or indirectly
counsel or procure another to commit the crime, are principals.
State v. Wiggins, 22 So.3d at 1041 (citing La. JLS. 14:24 (emphasis added)).
Another element the prosecution is required to establish is specific
intent, which has been explained as being;
[T]hat state of mind that exists when the circumstances indicate the
offender actively desired the prescribed criminal consequences to
follow his act or failure to act. La. R.S. 14:10(1). Though intent is a
question of fact, it need not be proven as a fact. It may be inferred
from the circumstances of the transaction. However, die defendant’s
mere presence at the scene is not enough to 'concern’ an individual in
the crime. A principal may be connected only to those crimes for
which he has the requisite mental state.
State v. Allen, 2005-1622 (La. App. 1 Cir. 3/2/06); 934 So.3d 146,153 (citing
State v. Hampton, 98-0625, p. 13 (La. 4/23/99); 750 So.2d 867,880.
The “determination of whether the requisite intent is present in a
criminal case is for the trier of fact, and a review of this determination is to
be guided by the standards of Jackson v. Virginia[.]” State v. Wiggins, 22
So.3d at 1042. There are, at least 3, critical questions that must be answered
in this case under the Jackson standard: (1) Is there sufficient proof to
support the State’s claim that Richards confessed to acting as a lookout? (2)
Is a signed waiver of rights form sufficient proof that Richards allegedly
confessed to acting as a lookout without a signed or taped confession? And
8

(3) Without proof of any alleged confession, can the question of
voluntariness be effectively addressed?
Questions concerning the identity of the robber are essentially of no
consequence to this case because the victim did not identify Richards as the
person who punched her and took her purse. Bourgeois’s description of the
attacker, her failure to pick Richards out of a lineup, and her testimony that
she never identified Richards as her attacker, serves as sufficient proof that
Richards did not accost her in any way. Bourgeois was undeniably punched
in her face and robbed; however, there are 2 important questions that should
have been answered for the jury: (1) Who robbed Bourgeois? and (2) Did the
perpetrator have someone acting as lookout when he robbed her? As is
evident from Bourgeois’s identification of her assailant, Richards was not
the perpetrator. In fact, the State did not present any appreciable evidence,
that could withstand the Jackson test, to prove Richards acted as principal,
in any capacity, to the attack and robbery. The issue in this case is did
Richards, either “directly or indirectly” cause the incident to happen; and,
did the State satisfy its burden under Jackson v. Virginia, supra.

9

C. The Alleged Confession.
According to Louisiana’s Third Circuit Court of Appeal, Richards
“confessed his participation in the robbery” and after he was “Mirandized
twice regarding the voluntariness of the statements ... [t]he advice of rights
forms were submitted into the record.” Appendix C, p.27. Even so, there is
no proof Richards gave any confession. Even assuming Richards returned to
give a statement, the question would have to turn to why the detective, who
allegedly received the confession, failed to preserve or corroborate it.
The federal district court noted that Richards’s trial counsel failed to
file a motion to suppress statements prior to trial and also failed to object to
the detective’s testimony about the statement he allegedly made. Appendix
C, p. 7. Even so, the court made no mention of the State’s failure to offer
anything, except hearsay testimony, to support its claim that Richards made
an inculpatory statement. On the other hand, the state and lower federal
courts claim counsel did not render ineffective assistance when he failed to
file a motion to suppress Richards’s alleged statement—a statement no one
can prove exists. The detective’s hearsay allegation, that Richards confessed
involvement in a crime, cannot stand. Where there is no proof Richards
made a statement, his trial counsel had a duty to, at least, make an attempt at

10

keeping the detective's uncorroborated claim (that Richards confessed) from
the jury. Especially where one prospective juror said he would give more
weight to police testimony, Richards’s trial was adversely affected.
In an unrelated case (where Richards was the defendant) the State
called Detective Borel to testify about the instant case. The state appellate
court noted:
Detective Borel testified he obtained a video from Buffalo Wild
Wing’s surveillance camera for the evening of the robbery. The video
showed Ms. Bourgeois’ vehicle pulling into the parking lot. Another
vehicle pulled in right behind her vehicle. A man exited the second
car, approached Ms. Bourgeois, struck her, and raced back to the
waiting vehicle. The detective stated the next day he learned that one
of Ms. Bourgeois’ credit cards was used at a Wal-Mart store
approximately forty-five minutes after the robbery. Detective Borel
obtained Wal-Mart’s surveillance video and identified Defendant,
wearing a green polo shirt, and another man making a purchase with
Ms. Bourgeois’ credit card. That same evening, the credit card was
used again at a gas station in Kaplan. A surveillance video was also
obtained of one of the men using the credit card. The gas station’s
store clerk identified the man using the credit card as Darvin
Williams. Mr. Williams was picked up and questioned by police. Mr.
Williams admitted that he was with Defendant the night Ms.
Bourgeois was robbed. Mr. Williams told the detective he was driving
the vehicle that pulled up behind Ms. Bourgeois’ vehicle and it was
Defendant who assaulted and robbed Ms. Bourgeois. Detective Borel
identified Defendant in court as the man who was with Darvin
Williams at Wal-Mart wearing a green polo shirt. The detective said
Defendant told him it was Mr. Williams who hit and robbed Ms.
Bourgeois and that they had switched shirts afterwards.

State v. Richards, 2017-135 (La. App. 3 Cir. 6/6/18); 247 So.3d 878,884.
11

Under the Jackson standard, the state appellate court’s cursory gloss
emphasizes the State’s deficient evidence. First of all, the Walmaxt video
does not reasonably infer Richards used the credit card because the video
showed “another man making a purchase with Ms. Bourgeois’ credit card.”
Another surveillance video showed the same man (later identified as Darvin
Williams) using Bourgeois’s credit card.
D. The Victim’s Description

of the

Perpetrator.

The federal district court considered Bourgeois’s description of her
attacker and noted she “identified the perpetrator as a male with a dark
complexion, broad shoulders, dark hair, wearing a green polo shirt.” Appendix
C, p. 8. The court, however, failed to make mention of Richards’s light­
skinned complexion. The State mischaracterized Bourgeois’s testimony to
support the misidentification of an innocent man. In fact, the state appellate
court acknowledged, in an unrelated case where Bourgeois testified, that she
never identified Richards as her assailant. See State v. Richards, 247 So.3d
at 883-84. Again, the lower courts ignored this and claimed Richards
“confessed his participation in the robbery.” Appendix G, p. 27.

12

E. Trial Counsel's Deficient Performance.
The state appellate court's conclusion establishes Richards’s claim of
ineffective assistance. The court said Richards failed to file a motion to
suppress his statement (although the State did not prove Richards made a
statement). The court also said he failed to object to Detective Borel’s
testimony; and, “even if [he was] precluded from attempting to suppress his
confession, there is sufficient evidence in the record to indicate [] the
confession was freely and voluntarily made... .[and therefore] the evidence
was sufficient to sustain the jury’s verdict.”
In evaluating the sufficiency of the evidence to support a conviction, a
reviewing court must determine whether, after viewing the evidence in the
light most favorable to the prosecution, any rational trier of fact could have
found the defendant guilty beyond a reasonable doubt. Jackson v. Virginia,
43 U.S. 307, 99 S.Ct. 2781 (1979); Slate v. Jacobs, 504 So.2d 817 (La. 1987).
Where the conviction is based on circumstantial evidence, La. R.S. 15:438
provides that such evidence must exclude every reasonable hypothesis of
innocence. Stale v. Langford, 483 So.2d 979 (La. 1986). La. R.S. 15:438
does not establish a stricter standard of review than the more general
rational juror’s reasonable doubt formula. It is merely an evidentiary guide

13

for the jury when considering circumstantial evidence. State v. Porretto, 468
So.2d 1142 (La. 1985). The State’s case failed to establish, beyond a
reasonable doubt, that Richards was guilty of second degree robbery in any
capacity.
2.

Richards’s trial counsel rendered ineffective assistance under the
standard announced in Strickland v. Washington, 466 U.S. 668, 104
S.Ct. 2052, 80 L.Ed.2d 674 (1984).
A criminal defendant’s right to the effective assistance of counsel is

guaranteed by the Sixth and Fourteenth Amendments and “is indispensable
to the fair administration of our adversarial system of criminal justice.”
Maine v. Moulton, 474 U.S. 159, 168, 106 S.Ct. 477, 88 L.Ed.2d481 (1985):
The standard of review for a claim of ineffective-assistance-of-counsel
requires a reviewing court to reverse a conviction if the defendant establishes
his counsel’s performance fell below an objective standard of reasonableness
under prevailing professional norms; and, if not for counsel’s deficient
performance, there is a reasonable probability the outcome of the proceeding
would have been different. Stricklandv. Washington, 466 U.S. at 688,694. The
reasonable probability standard does not require a defendant to show that
counsel’s deficient conduct more likely than not altered the outcome. Strickland
v. Washington, 466 U.S. at 693, 104 S.Ct., at 2068. While a reviewing court

14

must examine the “totality of circumstances and the entire record” to assess
counsel’s performance, “[s]ometimes a single error is so substantial that it
alone causes the attorney’s performance to fall below the Sixth Amendment
standard.” Nero v. Blackburn, 597 F.2d 991, 994 (5th Cir. 1979).
A. Failed

to

File a Motion

for

Bill of Particulars and Notice.

Under La. C. Cr. P. art 484, the prosecution is required to “furnish a
bill of particulars setting forth more specifically the nature and cause of the
charge against [a] defendant.” A Bill of Particulars must specify the manner
in which a particular statute is alleged to have been violated. For instance,
Richards was charged with second degree robbery but convicted as a
principal. The video surveillance proves Richards was not the perpetrator
and further shows there was no one acting as a lookout. This had to have
confused the jury and is probably what led them to ask if they could “get the
definition of each charge and affirmation that principal to the crime is still
‘guilty’ of the same crime?” The problem here is, the State failed to specify
what Richards did to “aid and abet... [or] counsel or procure mother to
[do].” La. R.S. 14:24. In other words, The jury did not understand if
Richards was accused of robbing Bourgeois or if he was accused of acting in
concert with the actual perpetrator. Therein lies the dilemma of the State’s

15

principal accusation—the prosecution failed to tell the jury exactly what
Richards supposedly did.
The State’s constructive amendment to the bill of information
happened after Richards’s trial began. The State’s mere mention of the law
of principals was not sufficient to qualify as: (1) a legal amendment of the
accusation; and (2) adequate notice of the crime Richards was accused of.
The State failed to provide Richards with written notice of being charged as
a principal to second degree robbery and his trial counsel, who has since
been disbarred, rendered ineffective-assistance when he failed to object.
B. Failed

to

Offer a Defense.

The Sixth Circuit Court of Appeals said that a “modification at trial
that acts to broaden the charge contained in an indictment constitutes
reversible error.” Lucas v. O’Dea, 179 F.3d412, 416 (C. A. 6 (Ky.) 1999);
citing Stirone v. United States, 362 U.S. 212, 217-19, 80 S.Ct. 270, 4
L.Ed.2d 252 (1960). That court also explained that there is no distinction
between federal or state prosecutions because “a state prisoner petitioning
for habeas corpus relief [also] has a due process right to be informed of the
nature of the accusations against him.” Lucas v. O’Dea,, at 417; citing
Combs v. Tennessee, 530 F.2d 695, 698 (6th Cir. 1976). The Lucas court also

16

considered the district court’s observation concerning the “result of the fatal
variance between the indictment and the jury instruction!:]”
[I]t is clear that [Lucas] was prejudiced, given that his defense
to the murder charge was that he was not the one who shot
Zurla. Given the form in which the case was delivered to the
jury, this would end up being no defense at all.
Lucas v. O'Dea, quoting Lucas v. O’Dea, No. 3:96-CV-482-A (June 18, 1997).
There was a fatal variance between the State’s bill of information, the
presentation of its case, and the instructions given to the jury. Worse still,
Richards’s trial counsel did not present a defense, instead he told the jury:
[T]he key thing that you have to determine is who done it.
That’s the theme in this case. [That’s] the only thing that I’m
asking you to do is when you’re focusing on the evidence in this
case, focus on that primary question on who done it?
Richards’s trial counsel could not have understood the law of principal.
He failed to ask the jury to consider the evidence and decide what, if anything,
the evidence proves Richards did. Richards was deprived of his constitutionally
protected right to present a defense and to be given notice of the accusation
against him in this case because of his trial counsel’s ineffectiveness.
The Louisiana Constitution provides that a “person arrested or
detained ... shall be advised fully of the reason for his arrest or detention

[and] SI! in a criminal prosecution, an accused shall be informed of the

17

nature and the cause of the accusation against him.” La. Const. Art. I, § 13.
Likewise, the United States Constitution requires that an accused “be
informed of the nature and cause of the accusation ... against him ... and to
have the effective assistance of counsel for his defense.” U.S. Const.
Amend. VI. The federal protection is afforded a state defendant by the equal
protection and due process clauses of the Fourteenth Amendment to the
United States Constitution. This honorable Court has said that “[n]o
principal of procedural due process is more clearly established than that
notice of the specific charge, and a chance to be heard in a trial of issues
raised by that charge, if desired, are among the constitutional rights of every
accused in a criminal proceeding in all courts, state or federal.” Cole v.
Arkansas, 68 S.Ct. 514 (1948) (citing In re Olive?, 33 U.S. 257, 68 S.Ct. 499
(1948); DeJonge v. State of Oregon, 299 U.S. 353, 362, 57 S.Ct. 255, 259,
81 L.Ed. 278 (1937); see also Jackson v. Virginia, 99 S.Ct. 2781 (1979).
C. Failed

to

File Motion

to

Suppress.

The federal district court's reference to the state appellate court’s
ruling on the admissibility of Richards’s alleged statement is misplaced.
There is no tangible proof Richards ever made a statement. How, then, can
the question of voluntariness truly be addressed? Richards’s trial counsel

18

rendered ineffective assistance when he failed to object to Detective BOrel’s
hearsay statement in the jury’s presence that Richards confessed to acting as
a lookout during the robbery. Better still, counsel should have known the
State intended on offering the detective’s statement under oath. Counsel had
a duty to file a motion to suppress the alleged confession and make clear to
the court that, without proof of any alleged confession, the question of
voluntariness should not have been the first inquiry.
The Eleventh Circuit Court of Appeals has said that “[a]t the heart of
effective representation is the independent duty to investigate and prepare.”
Goodwin v. Balkcom, 684 F.2d 794, 805 (11th Cir. 1982) (internal citations
omitted). The Eighth Circuit Court of Appeals said:
Investigation is mi essential component of the adversary process.
“Because [the adversarial] testing process generally will not
function properly unless counsel has done some investigation
into the prosecution’s case and into various defense strategies ...
'counsel has a duty to make reasonable investigations...
Wade v. Armonirout, 798 F.2d 304, 307 (8th Cir. 1986) (internal quotations
omitted).
Richards was deprived of his Sixth Amendment right to the effective
assistance of counsel because his trial counsel was not prepared. In fact,
Richards’s counsel requested a continuance so he could better prepare;
however, he failed to file other necessary pre-trial motions to gain more than
19

just a passing knowledge of the case against Richards. Richards’s trial
counsel neglected the central issue and also failed to meaningfully challenge
the State’s case; therefore, prejudice must be presumed. See United States v.
Cronic, 466 U.S. 648, 104 S.Ct. 2039 (1984).
CONCLUSION
For the foregoing reasons Richards’s petition for a writ of certiorari
should be granted.
Respectfully submitted,

Aaron Orlando Richards
Date: March 23, 2021

20

